                                                       NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESTIGATIONS

                                                  CLOSEOUT MEMORANDUM

     Case Number: 1-09-07-0042                                                               Pagel of 1



              NSF OIG and the U.S. Army Contracting Command (USACC) OIG received a complaint! that a
              university2 which manages an NSF funded facility3 attempted to evade federal regulations
              regarding a D~fense Advanced Research Projects Agency (DARPA) funded award.

              Because the complaint focused on the alleged actions by university officials regarding the
              DARPA award, NSF OIG informed USACC GIG, that NSF OIG was closing its investigation.

              Accordingly, this investigation is closed.




,   NSF OJG Fonn 2 (1lI02)
